APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Summary Order in the United States
Court of Appeals for the Second
Circuit
(June 4, 2019) . . . . . . . . . . . . . . . . App. 1
Appendix B Ruling and Order on Motion to Vacate
Maritime Attachment in the United
States District Court, District of
Connecticut
(November 20, 2017) . . . . . . . . . . . App. 6
Appendix C Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Second Circuit
(July 18, 2019) . . . . . . . . . . . . . . App. 21

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
No. 17-3781-cv
[Filed June 4, 2019]
__________________________________________
PSARA ENERGY LTD.,
)
)
Plaintiff-Appellant,
)
)
v.
)
)
SPACE SHIPPING LTD.,
)
GEDEN HOLDINGS, LTD.,
)
)
Defendants-Appellees,
)
)
ST SHIPPING & TRANSPORT PTE. LTD., )
)
Garnishee-Appellee.
)
_________________________________________ )
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER
JANUARY 1, 2007, IS PERMITTED AND IS
GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS

App. 2
COURT’S LOCAL RULE 32.1.1. WHEN CITING A
SUMMARY ORDER IN A DOCUMENT FILED
WITH THIS COURT, A PARTY MUST CITE
EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE
NOTATION “SUMMARY ORDER”). A PARTY
CITING TO A SUMMARY ORDER MUST SERVE
A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 4th day of June,
two thousand nineteen.
PRESENT: GERARD E. LYNCH,
RAYMOND J. LOHIER, JR.,
Circuit Judges,
BRIAN M. COGAN,*
District Judge.
FOR PLAINTIFF-APPELLANT:
GEORGE A. GAITAS, Gaitas,
Kennedy & Chalos PC,
Houston, TX (Stephan Skoufalos, Skoufalos LLC,
Stamford, CT, on the brief).

*

Judge Brian M. Cogan, of the United States District Court for the
Eastern District of New York, sitting by designation.

App. 3
FOR DEFENDANTS-APPELLEES:
Simon Harter, Law Offices of Simon Harter,
Esq., Princeton, NJ,
Frederick A. Lovejoy,
Lovejoy & Associates, Easton, CT.
FOR GARNISHEE-APPELLEE:
PETER J. BEHMKE
(Michael P. Jones, on the brief),
Herbert Smith Freehills New York LLP,
New York, NY.
Appeal from a judgment of the United States
District Court for the District of Connecticut (Victor A.
Bolden, Judge).
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
appeal is DISMISSED as moot.
In October 2017 Psara Energy Ltd. (Psara)
commenced this maritime case as an action in the
District Court under Rule B of the Supplemental Rules
for Admiralty or Maritime Claims and Asset Forfeiture
Actions, seeking to obtain security for claims of over
$19.6 million against Space Shipping Ltd. (Space) by
garnishing an award (the Debt) owed to Space by ST
Shipping & Transport Pte. Ltd. (ST Shipping). The
District Court issued an order of attachment over the
Debt but then vacated the order (the Vacatur Order)
when it concluded that the Debt was not located within
the District of Connecticut. Psara’s subsequent motions
to stay the Vacatur Order were denied, and it appealed.
After the District Court issued its Vacatur Order, ST
Shipping initiated a stakeholder proceeding before the

App. 4
English High Court of Justice to resolve Psara’s and
Space’s competing claims to the Debt. The English
High Court ruled that $911,894.40 and £204,620—
sums that Space conceded it owed Psara—should be
paid from the Debt to Psara, with the balance of the
Debt going to Space. ST Shipping then moved to
dismiss the present appeal as moot on the ground that
the Debt had been liquidated. We assume the parties’
familiarity with the underlying facts and the record of
prior proceedings, to which we refer only as necessary
to explain our decision to dismiss the appeal as moot.
Because the thing Psara seeks to attach – the Debt
– has been distributed from ST Shipping to Space and
to Psara pursuant to the English High Court’s order, it
no longer exists as a discrete res in ST Shipping’s
possession. This Court cannot order the attachment of
a res that no longer exists within the ownership of the
garnishee, ST Shipping. See Republic Nat’l Bank of
Miami v. United States, 506 U.S. 80, 87 (1992); Fid.
Partners, Inc. v. First Tr. Co. of N.Y., 142 F.3d 560,
564–66 (2d Cir. 1998). The appeal is therefore moot.
See In re Flanagan, 503 F.3d 171, 178 (2d Cir. 2007);
cf. In re McLean Indus., Inc., 857 F.2d 88, 89 (2d Cir.
1988).
Psara acknowledges that the Debt has been
distributed to Psara and Space pursuant to the English
High Court’s decision. But Psara suggests that we or
the District Court may order Space to restore the res to
ST Shipping, rendering the res once again attachable
notwithstanding that decision. We decline to do so both
because we extend comity to the decision of the English
High Court, which had proper jurisdiction, and because

App. 5
the enforcement of its decision does not prejudice the
rights of United States citizens or violate domestic
public policy. Victrix S.S. Co., S.A. v. Salen Dry Cargo
A.B., 825 F.2d 709, 713 (2d Cir. 1987). Psara insists
that we should not extend comity to the English High
Court because the English High Court did not extend
comity to our Circuit. But there was no attachment
order at the time the English High Court issued its
decision. That Court, as it determined, therefore was
not “acting in conflict either with an existing order of
the Connecticut court or with the wishes of the US
Court of Appeals.” ST Shipping v. Space Shipping
[2018] EWHC (Comm) 156 [37] (Eng.).
We have considered Psara’s remaining arguments
as to mootness and conclude that they are without
merit. For the foregoing reasons, ST Shipping’s motion
to dismiss the appeal is GRANTED and the appeal is
DISMISSED as moot. ST Shipping’s motion for
sanctions and costs under Rule 38 is denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court
/s/ Catherine O’Hagan Wolfe

App. 6

APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
No. 3:17-cv-01811(VAB)
[Filed November 20, 2017]
__________________________
PSARA ENERGY, LTD,
)
)
Plaintiff,
)
)
v.
)
)
SPACE SHIPPING, LTD,
)
GEDEN HOLDINGS, LTD )
)
Defendants. )
__________________________ )
Ruling and Order On Motion To Vacate
Maritime Attachment
PSARA Energy, LTD (“Plaintiff”) filed a Verified
Complaint on October 30, 2017, seeking attachment of
SPACE Shipping and Geden Holdings’s (“Defendants”
or “SPACE”) property located within the District of
Connecticut. See Compl., ECF No. 1. Specifically,
Plaintiff sought attachment of a debt owed by a thirdparty, ST Shipping and Trading Pte. Ltd. (“ST
Shipping”), to SPACE arising from an arbitration
proceeding in London.

App. 7
Currently pending before the Court is ST Shipping’s
motion to release the maritime attachment under Rule
E(f)(4) of the Supplement Rules. Because the Court
holds that it lacks personal jurisdiction over ST
Shipping and, therefore, the debt is not within the
District of Connecticut, ST Shipping’s motion is
GRANTED. The attachment will be VACATED.
I.

Factual and Procedural History

PSARA is a corporation organized under the laws of
the Republic of the Marshall Islands. Compl. ¶ 3.
SPACE Shipping, one of the defendants in this matter,
is a foreign company organized under the laws of
Malta. Id. at ¶ 4.1
On February 23, 2010, the parties entered into an
agreement for the Defendants to charter Plaintiff’s
crude oil tanker, the CV STEALTH. Id. Plaintiff alleges
that Defendants sub-chartered the vessel to a third
party, who sailed it to Venezuela with the intention of
loading the tanker with crude oil. Id. at ¶¶ 9, 10. Upon
arrival in the Venezuelan port of Puerto La Cruz,
Plaintiff alleges that the “Vessel was detained . . .
purportedly for being unauthorized to lift a cargo of
crude oil from Venezuela and being employed to lift a
cargo stolen” from the Venezuelan state oil company.
Id. at ¶ 14-16.
Venezuelan authorities released the vessel on
October 3, 2017. Plaintiff alleges, however, “due to her
forced idleness” for several years without maintenance,
“the vessel has suffered extensive damages and
deterioration . . . .” Id. at ¶ 24. Plaintiff alleges that the
vessel is “out of class, uninsurable” and will require

App. 8
numerous repairs that “will exceed the sum of
$15,000,000.” Id. at ¶ 25.
Plaintiff alleges that delivery of the vessel “in such
a deteriorated state of extensive disrepair” is a
material breach of the bareboat charter that the parties
signed. Id. at ¶ 27. In addition to the cost of repairs,
Plaintiff alleges that Defendants failed to make
payments owed for the hire of the vessel, owe
attorney’s fees for an arbitration brought in London as
well as interest, and owe damages for the time it will
take to repair the vessel. Id. at ¶¶ 26-31. The total
claim equals $19,604,297.00. Id. at ¶ 39.
The parties entered into arbitration in London for
the unpaid hire amount of $5,272,100.90. Id. at ¶ 17.
Following the arbitration award, the parties pursued a
settlement agreement addressing enforcement of that
award. Id. at ¶¶ 18-22. Plaintiff alleges that the
Defendants failed to make payments under the
settlement agreement and therefore the Plaintiff is
“about to submit a claim in the London arbitration,
which has continual jurisdiction over the claims for the
January through June 2017 unpaid hires, interest,
legal costs, and costs of the London arbitration, and
any other claims arising under the bareboat charter.”
Id. at ¶ 22.
Plaintiff then filed a Verified Complaint in this
Court on October 30, 2017 and sought the attachment
of an arbitration award between the Defendants and a
third party: ST Shipping. Plaintiff alleged that the debt
owed by ST Shipping to SPACE in relation to the
award was intangible property within the meaning of
Rule B and — based on a lawsuit filed by SPACE in

App. 9
this District to enforce the award against ST Shipping
— that property existed within the District of
Connecticut’s jurisdiction.
On November 1, 2017, this Court held that
“Plaintiff has met its initial burden in seeking
attachment under Rule B, and the Court will authorize
process of attachment and garnishment.” Ruling On
Attachment, ECF No. 15. The Court subsequently
issued a writ of garnishment.
ST Shipping filed a motion seeking to vacate the
garnishment under Rule(E)(4)(f) of the Supplement
Rules and sought a hearing. See Motion to Release
Maritime Attachment, ECF No. 18. The Court then
scheduled and held a hearing on November 17, 2017, at
which SPACE Shipping appeared for the first time.
SPACE maintained that Plaintiff failed to inform the
Court about developments in the London arbitration
and therefore argued the Verified Complaint should be
dismissed or, alternatively, reduced to account for
those developments. ST Shipping argued that this
Court lacked jurisdiction over the debt because this
Court lacked personal jurisdiction over ST Shipping.
Alternatively, it sought Court approval to transfer the
funds it owed to an escrow account in London.
Following the November 17th hearing, the Court
issued an order permitting the parties to submit any
supplemental briefing on any issue. See Order, ECF
No. 33. ST Shipping filed a supplement brief in which
it argued that a debt is only found within this District
only if a creditor — here, SPACE — could enforce that
debt here. Garnishee’s Supplemental Br., ECF No. 37
at 1-4. Additionally, ST Shipping argued that, in order

App. 10
for SPACE to enforce a debt in the District, there must
be personal jurisdiction over ST Shipping and, as a
foreign corporation, ST Shipping argues SPACE would
be unable to do so. Id. at 4-5.
SPACE adopted ST Shipping’s jurisdictional
arguments in their filing. See Defs. Objection 3, ECF
No. 36. Additionally, they argued that the award
should be vacated or reduced based on developments in
the London arbitration between PSARA and SPACE.
Id. at 1-2. Specifically, SPACE argued that the
arbitrators found many of the losses related to the
condition of the vessel not yet ripe, and that PSARA
should have notified the Court of this decision when
filing the Verified Complaint. Id. at 2-3. They argue
that, by not informing the Court, “Plaintiff has thus
breached the heightened duty of disclosure imposed in
rule B attachment actions.” Id. at 3. Alternatively, they
argue that the arbitration decision requires substantial
reduction in the amount of the attachment: from
$19,604,197 to $436,376.00. Id. at 3-5.
PSARA argued that ST Shipping’s debt has its situs
in Connecticut because ST Shipping has maintained an
office in Stamford, Connecticut. Pl. Supplemental Br.,
ECF No. 38 at 1-4. Additionally, they argue that the
arbitration decision highlighted by SPACE “does not
contain findings of fact or conclusion of law” and
represented “how things appeared when the claim
submission of Plaintiff was made” several weeks prior
to the filing of the Verified Complaint in this case. Id.
at 4. PSARA also submitted two declarations with
several exhibits attached in further support their
damage calculations. Decl. of Adamantios Adriotis,

App. 11
ECF No. 39 (detailing estimated costs of repairs and
other figures regarding vessel’s deterioration); Decl. of
Jeremy Biggs, ECF No. 40 (detailing current posture of
London arbitration).
II.

Standard of Review

Attachment in maritime or admiralty actions is
governed by Rules B and E of the Federal Rules of Civil
Procedure, Supplemental Rules for Admiralty or
Maritime Claims and Asset Forfeiture Actions. The
Second Circuit has “interpreted Rule B to permit a
plaintiff to obtain an order of attachment if it can show
that: 1) it has a valid prima facie admiralty claim
against the defendant; 2) the defendant cannot be
found within the district; 3) the defendant’s property
may be found within the district; and 4) there is no
statutory or maritime law bar to the attachment.” Blue
Whale Corp. v. Grand China Shipping Dev. Co., 722
F.3d 488, 493 (2d Cir. 2013) (internal citations and
quotations omitted).
Once a writ of garnishment has been issued, “any
person claiming an interest in it shall be entitled to a
prompt hearing at which the plaintiff shall be required
to show why the arrest or attachment should not be
vacated or other relief granted consistent with these
rules.” Fed. R. Civ. P. Supp. R. E(4)(f). The plaintiff
bears the burden of proving that each of the four
requirements are met to justify attachment. Sinoying
Logistics Pte Ltd. v. Yi Da Xin Trading Corp., 619 F.3d
207, 212 (2d Cir. 2010).
When there is no federal maritime law to guide our
decision, we generally look to state law to determine

App. 12
property rights. Shipping Corp. of India v. Jaldhi
Overseas Pte Ltd., 585 F.3d 58, 70 (2d Cir. 2009).
III.

Discussion

This case presents the question of whether a debt,
owed by a foreign third party to a foreign defendant, is
within the jurisdictional reach of the Court for the
purposes of maritime attachment, merely because the
third party maintains an office in Connecticut.
The parties do not appear to dispute that Plaintiff
has a valid prima facie admiralty claim against
Defendants.1 Nor do they debate that the third and
fourth prongs are met: Defendants are not present in
the District, and the parties have not raised any clear
bars to the attachment. ST Shipping, however,
challenges this Court’s jurisdiction to enter the
garnishment. While it does not dispute they owe some
sum of money to SPACE, ST Shipping argues that it is
not subject to the in personem jurisdiction of this Court.
Therefore, it essentially argues that PSARA has not
proved the second prong necessary to justify
garnishment: that Defendants’ property — here, the
debt owed SPACE by ST Shipping — is within the
District. The Court agrees.

1

Defendants contest the amount claimed by Plaintiffs, arguing
that at least part of that amount is the result of putative damage
to the tanker which the arbitration panel in London found was not
yet ripe. Defs. Objection at 1-3. Because the Court holds that the
property is not found within the District of Connecticut, it does not
address Defendants’ argument regarding the amount of that
property.

App. 13
A. Property Within the District
Maritime attachment has a long and storied history,
and is used by admiralty courts to “first, gain
jurisdiction over an absent defendant; and second, to
assure satisfaction of a judgment.” Aqua Stoli Shipping
Ltd. v. Gardner Smith Pty Ltd., 460 F.3d 434, 437 (2d
Cir. 2006) (describing the history of maritime
attachment). “One of the primary grounds for the
historical development of Rule B attachments was that
“[a] ship may be here today and gone tomorrow.”
Jaldhi, 585 F.3d at 70 (quoting Polar Shipping Ltd. v.
Oriental Shipping Corp., 680 F.2d 627, 637 (9th
Cir.1982)). The purpose of attachment was to allow
admiralty courts to extend jurisdiction to this
inherently fleeting property, while the property was
within the court’s jurisdiction. Aqua Stoli Shipping,
460 F.3d at 443 (“Maritime parties are peripatetic, and
their assets are often transitory. Thus, the traditional
policy underlying maritime attachment has been to
permit the attachments of assets wherever they can be
found and not to require the plaintiff to scour the globe
to find a proper forum for suit or property of the
defendant sufficient to satisfy a judgment.”).
Rule B codifies the longstanding practice in this
Circuit of maritime attachment. Aqua Stoli, 460 F.3d
at 437. It also extends the property that might be
subject to maritime attachment to both tangible and
intangible property. Jaldhi, 585 F.3d at 67. The Court,
however, must still have jurisdiction over the property
it seeks to attach. As the Second Circuit has noted:
“The ‘jurisdiction’ at issue in a Rule B attachment
proceeding is quasi in rem, rather than in personam or

App. 14
in rem. In Rule B attachment proceedings, jurisdiction
is predicated on the presence within the court’s
territorial reach of property in which the Rule B
defendant has an interest.” Id. at 69 n.12.
Therefore, the Court must determine whether the
property at issue —the debt owed by ST Shipping to
SPACE — is within this Court’s territorial reach. The
situs of intangible property has traditionally be seen as
“fictional,” but “where the debtor and creditor are
within the jurisdiction of a court, that court has
constitutional power to deal with the debt.” Standard
Oil Co. v. State of New Jersey, 341 U.S. 428, 439 (1951);
see also Dorr-Oliver, Inc. v. Willett Associates, 219 A.2d
718, 722 (Conn. 1966) (“In garnishment, it is the in
personam jurisdiction over the garnishee which
constitutes the seizure of the indebtedness insofar as
there is, or can be, any seizure of such an intangible.”).
Beginning with Jaldhi, the Second Circuit has
recognized that maritime law should not be any
different and held that Electronic Fund Transfers
(“EFTs”) were not attachable property within the
meaning of Rule B, even if they passed through
intermediary accounts in New York City. 585 F.3d at
71. The court concluded that EFTs are “in the
temporary possession of an intermediary bank” and
could be deemed defendant’s property. Id. If they were
not the defendant’s property, then it followed that they
were not within the reach of Rule B. Id.
Following Jaldhi, the Second Circuit affirmed this
principle again in Allied Maritime, Inc. v. Descatrade
SA, 620 F.3d 70 (2d Cir. 2010), where a district court
had attached funds before the Second Circuit’s decision

App. 15
in Jaldhi prohibited the practice. 620 F.3d. at 73
(noting that plaintiff served process on eleven different
banks through which it believed defendants might
transfer funds). When the defendant sought transfer of
the money, the bank then placed the funds in a
“suspense account” in New York or Paris. Id. After
Jaldhi was decided, the district court vacated the
attachment, and the plaintiff appealed. Id.
The plaintiff argued that the fact that the bank
operated a branch in New York was “sufficient to
permit the District Court to exercise jurisdiction” over
the defendant’s account. Id. at 74. The Second Circuit
rejected this approach. It applied New York law, which
under the “separate entity rule” requires that “each
branch of a bank be treated as a separate entity for
attachment purposes.” Id. at 74 (internal citations and
quotations omitted). Under New York law, the “mere
fact” that the bank had an office in New York did not
mean that all the accounts outside of New York could
be attached under Rule B. Id. (quoting John Wiley &
Sons, Inc. v. Kirtsaeng, No. 08 Civ. 7834, 2009 WL
3003242, at *3 (S.D.N.Y. Sept. 15, 2009)) Therefore, the
property was not within the jurisdiction of the court.
Id.
Here, PSARA argues that defendants’ intangible
property is within the district because ST Shipping
maintains an office in the State of Connecticut and
therefore the debt owed to SPACE is present there.
Allied Maritime, however, suggests two important
requirements. First, it is not enough to merely operate
an office within the jurisdiction of the Court. See Allied
Maritime, 620 F.3d. at 74. Instead, the court must have

App. 16
jurisdiction over the third-party where the account is
held. Id. Second, the Court should determine whether
state law allows the Court to exercise that jurisdiction.
See China Nat. Chartering Corp. v. Pactrans Air & Sea,
Inc., 882 F. Supp. 2d 579, 604 (S.D.N.Y. 2012) (noting
that personal jurisdiction over third-party garnishee
was “essential element” for attachment); Cf. Day v.
Temple Drilling Co., 613 F. Supp. 194, 197 (S.D. Miss.
1985) (“This Court concludes that since it has personal
jurisdiction over the garnishee/defendants, Gulf, Shell
and Chevron, it also has jurisdiction over any
indebtedness owed by the garnishee/defendants to
Temple.”).
PSARA argues that courts have rejected
jurisdictional arguments like those raised by ST
Shipping. It cites to Engineering Equipment Co. v. SS
SELENE, 446 F. Supp. 706 (S.D.N.Y. 1978), to argue
that “the jurisdiction of the court in Rule B cases does
not depend on state law” and that, even after the
Supreme Court’s decision in Shaffer v. Heitner, 433
U.S. 186 (1977), “the presence of defendants’ property
can provide a basis for jurisdiction.” Pl. Supplemental
Br. at 2-3 (quoting SS SELENE, 446 F. Supp. at 709).
However, it is not the Court’s in personam
jurisdiction over Defendants in this case that is at
issue. Rather, it is whether the Court has jurisdiction
over the third-party garnishees and, therefore, over the
debt the garnishees owe Defendants. The Court in SS
Selene, in language quoted by Plaintiff, explicitly noted
that “[s]ince the Holt Defendants (the garnishees) are
subject to our in personam jurisdiction, the debts are
deemed to their situs within the district.”

App. 17
Pl. Supplemental Br. at 2 (quoting SS SELENE, 446 F.
Supp. at 708-09). Plaintiff points to no case where the
Court lacked personal jurisdiction over a garnishee, nor
does Plaintiff wrestle with the relevant Second Circuit
caselaw addressed above that suggests merely
operating an office within the district is not sufficient
to locate property within the district.
As a result, the Court must determine whether it
has personal jurisdiction over ST Shipping and must
resolve that issue under Connecticut law. Jaldhi, 585
F.3d at 69-71 (applying New York law where no
maritime law existed); Allied Maritime, 620 F.3d at 74
(applying New York law to conclude that separate
entity rule prevented attachment).
B. P e r s o n a l
Jurisdiction
Connecticut Law

Under

According to the Complaint, ST Shipping is a
foreign corporation, headquartered in Singapore, but
registered to do business as a foreign corporation in
Connecticut. Compl. ¶ 34. Therefore, jurisdiction over
ST Shipping must be appropriate under Connecticut
law, which requires a two-step inquiry: “federal courts
must look to the forum state’s long-arm statute to
determine if personal jurisdiction may be obtained over
a nonresident defendant. . . . If jurisdiction is
appropriate under the relevant statute, the court must
then decide whether exercise of jurisdiction comports
with due process.” Savin v. Ranier, 898 F.2d 304, 306
(2d Cir. 1990) (interpreting CONN. GEN. STAT. ANN.
§ 52-59b); see also Estate of Nunez-Polanco v. Boch
Toyota, Inc., 339 F. Supp. 2d 381, 383 (D. Conn. 2004)
(same); Hamann v. Carpenter, No. 3:16-CV-00501-VAB,

App. 18
2017 WL 421646, at *1 (D. Conn. Jan. 31, 2017) (“The
Court will address the question of whether it would
offend due process to assert jurisdiction only after
determining that jurisdiction is statutorily
permissible.”).
Connecticut law allows foreign corporations to
register with the Secretary of State. CONN. GEN. STAT.
ANN. § 33-929(f). Under this statute:
Every foreign corporation shall be subject to suit
in this state, by a resident of this state or by a
person having a usual place of business in this
state, whether or not such foreign corporation is
transacting or has transacted business in this
state and whether or not it is engaged
exclusively in interstate or foreign commerce, on
any cause of action arising as follows: (1) out of
any contract made in this state or to be
performed in this state; (2) out of any business
solicited in this state by mail or otherwise if the
corporation has repeatedly so solicited business,
whether the orders or offers relating thereto
were accepted within or without the state;
(3) out of the production, manufacture or
distribution of goods by such corporation with
the reasonable expectation that such goods are
to be used or consumed in this state and are so
used or consumed, regardless of how or where
the goods were produced, manufactured,
marketed or sold or whether or not through the
medium of independent contractors or dealers;
or (4) out of tortious conduct in this state,
whether arising out of repeated activity or single

App. 19
acts, and whether arising out of misfeasance or
nonfeasance.
“[T]he Connecticut long-arm statutes do not confer
jurisdiction over actions committed by a nonresident
party against another nonresident.” Estate of NunezPolanco v. Boch Toyota, Inc., 339 F. Supp. 2d 381, 383
(D. Conn. 2004) (quoting Pomazi v. Health Indus. of
Am., 869 F.Supp. 102, 104 (D.Conn.1994)); see also Kun
Shan Ge Rui Te Tool Co. v. Mayhew Steel Prod., Inc.,
821 F. Supp. 2d 498, 502 (D. Conn. 2010) (“To establish
jurisdiction over a foreign corporation pursuant to
section 33–929(f), a plaintiff must be ‘a resident of this
state’ or ‘a person having a usual place of business in
this state.’”).
None of the parties in this action are residents of
Connecticut. SPACE Shipping is a foreign company
organized under the laws of Malta. Compl. ¶ 4. As
addressed above, while ST Shipping may maintain an
office in Stamford, it is a foreign company
headquartered in Singapore with its principal place of
business abroad. PSARA is a corporation organized
under the laws of the Republic of the Marshall Islands.
Compl. ¶ 3.
Plaintiff has not addressed why Connecticut’s
foreign corporation long-arm statute would give this
Court personal jurisdiction over ST Shipping for this
case, instead merely arguing that ST Shipping’s office
in Stamford establishes personal jurisdiction. Even
assuming, however, that a foreign corporation could be
sued by a foreign plaintiff under CONN. GEN. STAT.
ANN. § 33-929(f), the Plaintiff points to no contract that
has ties to the State of Connecticut, nor do they allege

App. 20
that the debt owed by ST Shipping arises from the
solicitation of business by mail, the production and
manufacture or distribution of goods within
Connecticut, or from any tortious conduct by
ST. Shipping. In fact, Plaintiff has not addressed the
satisfaction of any of the requisites of the Court’s
jurisdiction over ST Shipping at all under § 33-929(f).
The Court therefore may not exercise personal
jurisdiction over ST Shipping. It follows that any of
SPACE’s intangible property held by ST Shipping is
outside the jurisdiction of this Court. Given these
considerations, the Court holds that the debt owed to
SPACE Shipping based on the arbitration in London is
not within the District.
CONCLUSION
ST Shipping’s Motion to Release Maritime
Garnishment is GRANTED. The attachment
previously ordered is VACATED under Rule(E)(4)(f) of
the Supplement Rules of Civil Procedure.
SO ORDERED at Bridgeport, Connecticut, this 20th
day of November 2017.
/s/ Victor A. Bolden
Victor A. Bolden
United States District Judge

App. 21

APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Docket No: 17-3781
[Filed July 18, 2019]
__________________________________________
PSARA Energy Ltd.,
)
)
Plaintiff - Appellant,
)
)
v.
)
)
Space Shipping Ltd., Geden Holdings, Ltd., )
)
Defendants - Appellees, )
)
ST Shipping & Transport Pte. Ltd,
)
)
Garnishee-Appellee.
)
_________________________________________ )
ORDER
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 18th day of July,
two thousand nineteen.
Appellant, PSARA Energy Ltd., filed a petition for
panel rehearing, or, in the alternative, for rehearing en

App. 22
banc. The panel that determined the appeal has
considered the request for panel rehearing, and the
active members of the Court have considered the
request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/ Catherine O’Hagan Wolfe

